OIG Audit Report GR-30-07-001

Office on Violence Against Women, 
Legal Assistance for Victims Grant Program, 
West Virginia Coalition Against Domestic Violence,
Charleston, West Virginia

Audit Report GR-30-07-001


November 2006
Office of the Inspector General


Executive Summary





 The Office on Violence Against Women (OVW) provides national leadership in developing the nation’s capacity to reduce violence against women through the implementation of the Violence Against Women Act (VAWA). Created in 1995, OVW administers financial and technical assistance to communities across the country. Since its inception OVW has granted nearly $2 billion in grants and cooperative agreements.
 The Office of the Inspector General has completed an audit of the Legal Assistance For Victims grant number 2004-WL-AX-0040 (LAV grant) awarded to the West Virginia Coalition against Domestic Violence (WVCADV). The WVCADV is a non-profit organization formed in 1981 to develop and implement projects that address domestic violence in West Virginia. The LAV Grant was awarded September 13, 2004 in the amount of $849,716 for a two-year period. The project period end date was extended to December 31, 2006 via Grant Adjustment Notice number one. We conducted our audit to determine whether: costs claimed were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions; and grant objectives were achieved.
 Our audit found that WVCADV generally complied with the LAV grant requirements. However, we determined that WVCADV could enhance progress reporting and project evaluation by improving the process for counting victims fully, partially, or not served by advocate offices.